                                        NATIONAL SCIENCE FOUNDATION
                                         OFFICE OF INSPECTOR GENERAL
                                          OFFICE.OF INVESTIGATIONS
                8   I

                               CLOSEOUT MEMORANDUM

TO: AIGI     I File Number: 197080040                                         I Date: 02 March 2002
Subject: Closeout Memo
                                                                              I           Page 1 of 1


     There was no closeout written at the time this case was closed. The following information was
     extracted from the file in conformance with standard closeout documents.

     Our office was informed that the subject' allegedly did not participate in an international
     collaboration as proposed, but spent all the grant funds. OIG reviewed grant financial documents
     which showed that all the funds were spent. OIG interviewed a foreign scientist, who had not come
     to the institution2to collaborate as was planned in the NSF award. Once the OIG review began, the
     subject did contact the foreign scientist and the collaboration began. The institution administration
     returned funds to the grant and insured that the grant project would be completed.

     Accordingly this case is closed.
MEMORANDUM

Date:   ,      September 30,1997

To:            File No. I97080040

From:                            Special Agent, Investigations Section
                                 Special Agent, Investigations Section

Re:               Close out -



Our office received an allegation that a principal investigator (PI) at the University of
                             ad received an NSF grant but had not conducted the work
for the project. O& offiie investigated to see if                        the PI, had
hudulently used these grant funds.

NSF.awarded grant no                     in the amount of            to      on              ,
1994. For this project, NSF approved funding for a scientist from the
                                                           to travel to       and collaborate
with                  NSF approve; a budget that included               in participant support
costs and foreign travel to cover thc          scientist's expenses. NSF expressly stated in
the award letter that the grantee could not change participant support costs. or foreign
travel costs without first consulting and receiving approval from NSF.

 Investigation:

 At the time we began our investigation in April 1997, the grant had already expired after
 receiving a no-cost extension which ended in December 1996. As of April, the
 collaboration had not occurred. In addition, all of the funds for this grant had been spent,
 including the funds for participant support and foreign travel.

 Our ofice contacted the university and requested financial documents for the grant.
 Shortly after we contacted the university,               ,tatted the NSF program officer,
 citing concerns about the investigation and asking for another no cost extension, assuring
 the program manager that he                 had made plans for the collaboration and it
    would occur. NSF approved another no-cost extension, and the             ientist came to
D                 397.
    Recommendation/Conclusion:
              I


    We recommended to the university that it reimburse the grant account for           , or a
    lesser amount if          could provide justification for a lesser amount. We also
    recommended that         iversity provide NSF with its oversight pfocedms, in writing, to
    insure that future grant expenditures are in accordance with NSF regulations. The
    university agreed with our recommendations.

    This case is closed.
